OFFICE OF AUDIT
REGION 5
CHICAGO, IL




        U.S. Department of Housing and Urban
      Development, Office of Single Family Housing
                   Washington, DC

                   Single Family Housing Program
                      Property-Flipping Waiver




   TO: Kathleen Zadareky, Deputy Assistant Secretary for Single Family Housing, HU

2014-CH-0001                                                             SEPTEMBER 30, 2014
                                                        Issue Date: September 30, 2014

                                                        Audit Report Number: 2014-CH-0001


TO:          Kathleen Zadareky, Deputy Assistant Secretary for Single Family Housing, HU

              //signed//
FROM:        Kelly Anderson, Regional Inspector General for Audit, Chicago Region, 5AGA

SUBJECT: HUD Did Not Always Provide Adequate Oversight of Its Property-Flipping Waiver
           Requirements


    Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG) final results of our review of HUD’s oversight of its property-flipping
waiver requirements.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8M, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
(312) 353-7832.
                                            September 30, 2014
                                            HUD Did Not Always Provide Adequate Oversight of Its
                                            Property-Flipping Waiver Requirements




Highlights
Audit Report 2014-CH-0001


 What We Audited and Why                     What We Found

We audited the U.S. Department of           HUD did not always (1) ensure that lenders complied
Housing and Urban Development’s             with the additional underwriting conditions to be
(HUD) oversight of property flipping as     eligible for a waiver from its 90-day property-flipping
part of the activities in our fiscal year   regulation and (2) properly identify or track loans for
2013 annual audit plan, which includes      90-day property flips. As a result of these deficiencies,
contributing to the protection of the       the risk to FHA’s Mutual Mortgage Insurance Fund
integrity of housing insurance and          increased by more than $2.5 million. Further, HUD
guarantee programs. Our audit               lacked assurance of the accuracy of the property-
objective was to determine whether          flipping data, which provided the basis for its decision
HUD had adequate oversight of its           to extend the waiver through 2014. We estimate that
property-flipping waiver.                   over the next year, if HUD does not implement our
                                            recommendations, the potential risk to the FHA
 What We Recommend                          Mutual Mortgage Insurance Fund will be nearly $274
                                            million for properties not meeting eligibility
                                            requirements for a waiver of HUD’s property-flipping
We recommend that HUD’s Deputy              regulation.
Assistant Secretary for Single Family
Housing require lenders to (1) support
or indemnify HUD for any future losses
on 12 loans with an estimated loss of $1
million (2) indemnify HUD for any
future losses on 16 loans with an
estimated loss of $1.5 million. We also
recommend that HUD (1) discontinue
the waiver or strengthen its controls
over its property-flipping waiver
requirements and (2) issue clarification
on the criteria for determining a loan’s
sales contract date and a property’s
resale date to ensure consistent and
accurate application by lenders.
                             TABLE OF CONTENTS

Background and Objective                                                                3

Results of Audit
        Finding: HUD Did Not Always Ensure That Lenders Met Eligibility Requirements
        for the Waiver                                                                 5

Scope and Methodology                                                                  12

Internal Controls                                                                      16

Appendixes
   A.   Schedule of Questioned Costs and Funds To Be Put to Better Use                 18
   B.   Auditee Comments and OIG’s Evaluation                                          19
   C.   Criteria                                                                       21
   D.   Schedule of Postendorsement Technical Review Deficiencies                      24
   E.   Schedule of Lender Compliance Deficiencies                                     25
   F.   Estimated Losses to HUD for Material Deficiencies                              27




                                              2
                            BACKGROUND AND OBJECTIVE

The Federal Housing Administration (FHA) provides mortgage insurance on loans made by
FHA-approved lenders throughout the United States and its territories. FHA insures mortgages
on single-family and multifamily homes, including manufactured homes and hospitals. It is the
largest insurer of mortgages in the world, having insured more than 34 million properties since
its inception in 1934. FHA mortgage insurance provides lenders protection against losses as a
result of homeowners defaulting on their mortgage loans. The lenders bear less risk because
FHA will pay a claim to the lender if a homeowner defaults. Loans must meet certain
requirements established by FHA to qualify for insurance.

The term property flipping refers to a practice in which a recently acquired property is resold for
a considerable profit with an artificially inflated value, often abetted by a lender’s collusion with
an appraiser. Most property flipping occurs within a matter of days after acquisition and usually
with only minor cosmetic improvements, if any. To prevent this abuse, the U.S. Department of
Housing and Urban Development (HUD) instituted 24 CFR (Code of Federal Regulations)
203.37a(b)(2), prohibiting the use of FHA financing to purchase single-family properties that are
resold within 90 days of acquisition.

In January 2010, FHA announced that it was waiving its regulation that prohibited the use of
FHA financing to purchase properties that were resold within 90 days of acquisition. The
waiver,1 which applied to all sales contracts executed on or after February 1, 2010, has been
gradually extended over the years through December 31, 2014.

FHA, through the regulatory waiver, sought to encourage investors that specialize in acquiring
and renovating properties to renovate foreclosed-upon and abandoned homes with the objective
of increasing the availability of affordable homes for first-time and other purchasers. This effort
would help stabilize real estate prices as well as neighborhoods and communities where
foreclosure activity has been high.	

To be eligible for the waiver of HUD’s property-flipping regulation, an FHA-approved lender
must meet certain conditions. For example, all transactions must be arms length, and for a
property that is sold more than 20 percent above the seller’s acquisition cost, the lender is
eligible for the waiver only if it

     1. Justifies the increase in value by retaining in the loan file a second appraisal or supporting
        documentation, which verifies that the seller has completed sufficient legitimate
        renovation, repair, and rehabilitation, and
     2. Orders a property inspection and provides the inspection report to the purchaser before
        closing. Further, starting February 1, 2011, if the inspection report noted that repairs were


1
    The waiver does not apply to sales by HUD of real estate-owned properties or mortgages insured under HUD’s
    Home Equity Conversion Mortgage program.


                                                         3
       required because of structural or “health and safety” issues, those repairs must be
       completed before closing.

In 2011, HUD published an initial assessment of the waiver. The assessment included an
analysis of early payment defaults, borrowers’ credit profiles, and property defects for property
flips in comparison to loans for non-property flips to ensure that FHA risk controls were
adequate.

Further, HUD’s Office of Evaluations performed an analysis of the waiver, which focused on the
percentage of HUD real estate-owned properties2 that were sold to purchasers using an FHA-
insured loan and the percentage of flipped properties that were purchased using FHA insurance
as of June 30, 2012. This analysis concluded that the waiver had no perceptible impact on
FHA’s insured portfolio as the share of real estate owned sales to owner occupants using FHA
insurance had not changed nor had the percentage of real estate-owned sales that came back to
FHA as new originations within 90 days of disposition.

HUD’s Office of Single Family Housing is responsible for the overall management and
administration of the FHA single-family mortgage insurance programs and provides guidance for
and oversight of the lenders that participate in its mortgage insurance programs. Its oversight
authorities include HUD’s Homeownership Centers, which are located in Philadelphia, PA,
Denver, CO, Santa Ana, CA, and Atlanta, GA. Within the Homeownership Centers is the
Processing and Underwriting Division. The Processing and Underwriting Division performs
postendorsement technical reviews to ensure that lenders understand and comply with HUD’s
requirements. To execute this function, the Division reviews selected mortgages after
endorsement. This process includes a review of the appraisal report, mortgage credit analysis,
underwriting decisions, and closing documents from the mortgage case endorsement file.

Our objective was to determine whether HUD had adequate oversight of its property-flipping
waiver. Specifically, we wanted to determine whether HUD (1) ensured that lenders complied
with required conditions to be eligible for the waiver and (2) properly identified or tracked 90-
day property flips.




2
  A real estate-owned property is a residential property acquired by HUD as a result of a foreclosure action on an
FHA-insured mortgage. In this case, HUD becomes the property owner and offers it for sale to recover the loss on
the foreclosure claim.


                                                         4
                                      RESULTS OF AUDIT

Finding: HUD Did Not Always Ensure That Lenders Met Eligibility
Requirements for the Waiver
HUD did not always (1) ensure that lenders complied with additional underwriting conditions to
be eligible for a waiver of its 90-day property-flipping regulation and (2) identify or track loans
for 90-day property flips. These weaknesses occurred because HUD lacked adequate procedures
and controls to ensure that (1) it performed adequate monitoring and oversight of lenders’
compliance with the requirements of the waiver and (2) lenders fully understood the additional
underwriting conditions for 90-day property flips and entered accurate information into HUD’s
FHA Connection.3 As a result of these deficiencies, the risk to FHA’s Mutual Mortgage
Insurance Fund increased by more than $2.5 million. Further, HUD lacked assurance of the
accuracy of the property-flipping data, which provided the basis for its decision to extend the
waiver through 2014. We estimate that over the next year, if HUD does not implement our
recommendations, the potential risk to the FHA Mutual Mortgage Insurance Fund will be nearly
$2744 million for properties not meeting eligibility requirements for a waiver of HUD’s
property-flipping regulation.


    HUD Did Not Always Ensure
    That Lenders Met of the
    Conditions of the Waiver

                 HUD determined that it insured 69,196 loans for 90-day property flips during the
                 period February 1, 2010, through December 31, 2012. Of the 69,196 loans, HUD
                 reviewed 2,385 loan files. We statistically selected 95 of the 2,3855 loans to
                 determine whether the lenders complied with the additional underwriting
                 requirements of HUD’s property-flipping waiver. Of the 95 loans selected, only
                 53 of the loans were subject to the requirements of the waiver.6 For the 53 loans,
                 17 (32 percent) contained 1 or more of the following material underwriting
                 deficiencies that were not identified by HUD:

                         12 loan files were missing the required property inspection report,
                         11 loan files were missing evidence of a second appraisal or
                          documentation that supported the increase in property value, and
                         1 loan file did not contain evidence that required repairs for structural or
                          health and safety concerns had been completed before the loan closed.
3
  FHA Connection is an Internet-based system that allows FHA-approved lenders to have real-time access to several
of FHA’s systems over HUD’s Internet system for the purpose of originating and servicing FHA loans.
4
  Our methodology for this estimate is explained in the Property Flips Identified by HUD subsection of the Scope
and Methodology of this audit report.
5
  The universe was reduced to 2,331 for sampling purposes. See the Scope and Methodology of this audit report.
6
  For the remaining 42 loans, 30 were for properties that were permitted to be resold within 90 days in accordance
with HUD Mortgagee Letter 2006-14 and 12 were for properties that had not been resold within 90 days.

                                                        5
                  Further, HUD did not always maintain support to show that the following material
                  deficiencies identified during the postendorsement technical review for 6 of the
                  53 loans (11 percent) had been mitigated:

                          6 loan files were missing the required property inspection, and
                          3 loan files were missing evidence of a second appraisal or documentation
                           that supported the increase in property value.

                  The table in appendix D of this report shows the loans with the deficiencies cited
                  above.

                  HUD’s Removal of System Controls Allowed Lenders To Insure Ineligible Loans

                  Before the waiver, only an exempt entity7 could sell a property within 90 days of
                  acquisition. In this instance, the lender would contact HUD’s Homeownership
                  Center for the loan’s flip status8 in HUD FHA Connection to be overridden so that
                  the loan could be processed for endorsement. However, after the implementation
                  of the waiver, all loans for 90-day property flips could be processed through the
                  system without requiring a manual override from HUD. Therefore, HUD relied
                  on the lenders to (1) determine whether a loan for a property that had been resold
                  within 90 days was eligible for FHA insurance and (2) correctly enter the
                  associated property information into the system.

                  We selected 160 loans from 67 lenders totaling more than $26 million, which
                  were identified by HUD as loans for flipped properties that had been insured by
                  FHA since the effective date of the waiver. Of the 160 loans, only 89 were 90-
                  day property flips and subject to the requirements of the waiver.9 Of the 89 loans,
                  22 (25 percent) were not eligible for FHA insurance because they did not meet the
                  requirements for the waiver.10 The following table shows the number of loans
                  and the material underwriting deficiencies identified.

                             Material deficiencies                               Total
                             Missing second appraisal                             9
                             Lack of documentation for required
                             repairs                                                9
                             Property inspection not ordered                        7
                             Total material deficiencies                           25

                  Based on the results of our review, we estimate that over the next year, if HUD
                  does not implement our recommendations, the potential loss to the FHA Mutual

7
  Mortgagee Letter 2006-14 defines the entities that are exempt from HUD’s property-flipping regulation.
8
  The flip status category 1 indicator identifies loans that were 90-day flips.
9
  For the remaining 71 loans, 52 loans were for properties that were permitted to be resold within 90 days, and 19
loans were for properties that had not been resold within 90 days.
10
   Three of the twenty-two loans contained more than one material deficiency.

                                                          6
                 Mortgage Insurance Fund will be nearly $274 million for properties not meeting
                 the eligibility requirements for a waiver of HUD’s property-flipping regulation.

                 In addition, contrary to HUD’s requirements,11 lenders for 3212 of the 89 loans (1)
                 did not always enter the property’s first appraisal, (2) improperly entered a
                 property’s second appraisal, or (3) charged borrowers for 2 appraisals.13

                 The table in appendix E of this report shows the loans with the deficiencies cited
                 above.

     HUD’s FHA Connection System
     Did Not Always Identify or
     Track Loans for 90-Day
     Property Flips

                 HUD did not always identify or properly track 90-day property flips. HUD’s list
                 of property flips included at least 113 (42 + 71)14 loans that were not subject to
                 the requirements of the waiver. It also did not differentiate between the loans for
                 properties that were (1) allowed to be resold within 90 days and (2) eligible for
                 FHA insurance because of the waiver.

                 Using HUD’s Single Family Data Warehouse,15 we identified an additional
                 35,940 loans that appeared to have been resold within 90 days with an increased
                 value of more than 20 percent. These loans were not (1) included in HUD’s
                 listing of loans that it had endorsed since the implementation of the waiver and (2)
                 identified in HUD’s system16 as property flipped loans.

                 We reviewed a sample of 70 of the 35,940 loans to determine whether the loans
                 were for flipped properties that should have required additional underwriting
                 conditions to be eligible for FHA insurance.17 Of those 70 loans, HUD did not
                 properly identify 19 (27 percent), valued at more than $3 million, for properties
                 that had been resold within 90 days for more than 20 percent above the previous
                 sellers’ acquisition cost. In projecting the results of our sample to the universe,
                 we estimate that HUD did not properly identify nearly 6,800 properties that had
                 been resold within 90 days of acquisition with an increased sale price of more
                 than 20 percent.
11
   Federal Register Notice, FR-6149-N-23
12
   Nine of the thirty-two loans contained more than one deficiency.
13
   Federal Register Notice, FR-5397-N-01
14
   See footnote 6 and footnote 9
15
   Single Family Data Warehouse is a large and extensive collection of database tables organized and dedicated to
support the analysis, verification and publication of Single Family Housing data.
16
   Lenders enter data into HUD’s FHA Connection, which is uploaded into HUD’s Single Family Data Warehouse.
 Therefore, data for FHA Connection’s flip status indicator 1 populated HUD’s Single Family Data Warehouse flip
 status category 1 indicator.
17
   The universe contained 4,275 properties with executed sales contracts before the implementation of the first
waiver.

                                                        7
                    According to HUD’s Office of Program Development, data on 90-day property
                    flips were retrieved from HUD’s Single Family Data Warehouse System and used
                    to (1) analyze the effectiveness of the waiver and (2) support the Office of Single
                    Family Housing’s decision to extend the waiver. However, due to HUD’s
                    inability to accurately track and identify loans for 90-day property flips, HUD
                    could not adequately monitor lenders for compliance with the additional
                    underwriting requirements of the waiver and accurately determine the
                    effectiveness of the waiver to support its decision to extend the waiver through
                    2014.

     HUD Lacked Adequate
     Procedures and Controls

                    The weaknesses described above occurred because HUD lacked adequate
                    procedures and controls to ensure that (1) it performed adequate monitoring and
                    oversight of lenders for compliance with the requirements of the waiver and (2)
                    lenders fully understood the additional underwriting conditions for 90-day
                    property flips and (3) lenders entered accurate information into FHA Connection.

                    HUD’s property-flipping waiver implemented eligibility conditions to mitigate
                    the risks associated with 90-day property flips. HUD’s Assessment for
                    Exemption From Compliance With FHA’s Regulation on Property Flips in
                    Calendar Year 2010, stated that flipped property loans would be targeted for a
                    postendorsement technical review. However, according to HUD, these loans
                    were targeted for a postendorsement technical review for only the first 5 months18
                    of the waiver. After that, the loans were selected for review using a risk-based
                    approach. Further, according to HUD’s assessment, nearly 48 percent of the
                    loans for property flips received an unacceptable valuation rating, which was a
                    substantially higher percentage than for other loans. The majority of the
                    unacceptable valuation ratings were the result of documentation compliance
                    issues, such as missing inspection reports, second appraisals, and termite reports.

                    HUD’s assessment also determined that (1) the requirement for the documentation
                    was new to lenders and FHA and (2) lenders interpreted the controls
                    inconsistently or incorrectly. However, HUD did not provide additional
                    documentation to support that it performed an assessment of lenders’ compliance
                    each time it extended the waiver. Instead, it performed fewer postendorsement
                    technical reviews of flipped property loans.

                    The figure below shows the number of loans that HUD identified as being for
                    flipped properties compared to the number of loans HUD reviewed during its
                    initial 5-month assessment and later waiver extensions.19


18
     From February 1, 2010 through June 30, 2010.
19
     HUD’s universe contained 146 loans for properties with executed sales contracts before the waiver.

                                                           8
                              Property flips identified and reviewed by 
                                                 HUD
                       2/1/2010‐6/30/2010                       14,621
                                                1,364
                                                                               26,864        Property flips
                        2/1/2010‐2/1/2011        1,618

                      2/1/2011‐12/31/2011                                22,110
                                               517                                           Postendorsement
                                                                                             technical reviews
                      1/1/2012‐12/31/2012                             20,076
                                               233




                   Further, in performing postendorsement technical reviews, HUD’s
                   postendorsement technical reviewers or contractors20 (1) accepted incorrect or
                   inadequate explanations from lenders or (2) did not request required
                   documentation. For instance, if a property inspection identified required repairs
                   for health and safety violations, HUD indicated that those repairs were considered
                   mitigated if the repairs were not identified in the appraisal report. However, the
                   waiver explicitly required a final inspection to determine whether the repairs had
                   been satisfactorily completed.

                   In addition, when we contacted the lenders to obtain the missing required
                   documentation, we were informed by several lenders that the documents were not
                   available because they (1) were not aware that the documents were required or (2)
                   did not fully understand the additional requirements for 90-day property flips to
                   be eligible for FHA insurance. For instance, one lender stated that the property
                   flipping waiver was unclear about whether an appraiser could conduct the
                   property inspection. Further, because it is customary for a borrower to have the
                   inspection report, it is difficult for the lender to obtain the report from the
                   borrower before the loan closing.

                   Further, HUD’s removal of its system controls allowed lenders to endorse loans
                   for 90-day property flips that would have normally been rejected. However, HUD
                   did not have adequate procedures and controls in place to ensure that lenders (1)
                   complied with the requirements of the waiver and (2) correctly identified loans
                   that were for 90-day property flips.

                   From our samples of 95 loans that were reviewed by HUD under a
                   postendorsement technical review and 160 loans that we reviewed for lender
                   compliance, a total of 31 loans (12 + 19)21 did not have to comply with the
                   requirements of the waiver because these loans were for properties that had not

20
     On October 4, 2010, HUD discontinued using contractors to perform postendorsement technical reviews.
21
     See footnote 6 and footnote 9

                                                         9
             been resold within 90 days. However, these loans were identified by HUD as
             loans for flipped properties.

             In addition, lenders did not always use the correct resale date when entering
             information into HUD’s FHA Connection. The lenders used the date on which
             the buyers signed the sales contract as the resale date in accordance with
             Mortgagee Letter 2006-14 and HUD Handbook 4155.2, paragraph 4.7.e, which
             states that the resale date is the date of execution of the sales contract by the
             buyer. However, 24 CFR 203.37a(b)(1) states that the resale date is the date of
             execution of the sales contract that would result in the FHA mortgage insurance.

             We sought clarification from HUD regarding a property’s resale date. HUD’s
             senior housing program manager for its Processing and Underwriting Division
             stated that the resale date or current sale contract date is the date on which the
             borrower initiated a contract of sale on the subject property. However, HUD’s
             senior policy advisor for the Office of Single Family Housing, Home Mortgage
             Insurance Division, stated that FHA views the execution date of the sales contract
             as the date on which the buyer and seller signed the contract. After consulting
             with the Office of General Counsel, HUD’s Office of Single Family Housing
             confirmed that the resale date, which is the execution date of a real estate sales
             contract, is the date on which both the buyer and the seller signed the contract,
             making it enforceable.

             Further, lenders relied on data such as acquisition cost and the prior sale date
             identified in the appraisal reports. However, the data were not always accurate.

Conclusion

             HUD lacked adequate procedures and controls to ensure that (1) it performed
             adequate monitoring and oversight of lenders for compliance with the
             requirements of the waiver and (2) lenders fully understood the additional
             underwriting conditions for 90-day property flips and entered accurate
             information into HUD’s system. As a result, the risk to FHA’s Mutual Mortgage
             Insurance Fund increased by more than $2.5 million. Further, HUD lacked
             assurance of the accuracy of the property-flipping data, which provided the basis
             for its decision to extend the waiver through 2014.

             We estimate that over the next year, if HUD does not implement our
             recommendations, the potential risk to the FHA Mutual Mortgage Insurance Fund
             would be nearly $274 million for properties not meeting the eligibility
             requirements for a waiver of HUD’s property-flipping regulation.




                                             10
     Recommendations

                 We recommend that HUD’s Deputy Assistant Secretary for Single Family
                 Housing to require the lenders to

                 1A. Support that the loans cited for postendorsement technical reviews by HUD
                     were eligible for FHA insurance or require the lenders to indemnify HUD
                     for any future losses on the 12 loans22 with an estimated loss of
                     $1,047,314,23 based on the loss severity rate of 54 percent of the total unpaid
                     principal balance of $1,939,471 as of June 1, 2014.

                 1B. Indemnify HUD for any future losses on the 16 loans24 with an estimated
                     loss of $1,487,921,25 based on the loss severity rate of 54 percent of the total
                     unpaid principal balance of $2,755,409 as of June 1, 2014.

                 We recommend that HUD’s Deputy Assistant Secretary for Single Family
                 Housing

                 1C. Discontinue the waiver for 90-day property flips upon its termination on
                     December 31, 2014, or strengthen controls over HUD’s property-flipping
                     waiver requirements. Such controls should include but not be limited to (1)
                     improving its existing policies, procedures, and reporting system to ensure
                     that it properly identifies and reviews property flips; (2) establishing
                     consistent standards for the documentation lenders are required to provide to
                     HUD’s Homeownership Centers and maintain in the FHA case binders or
                     lenders’ files; (3) providing training to HUD reviewers for reviewing flipped
                     properties; and (4) monitoring lenders’ data entries in FHA Connection to
                     ensure the accuracy and completeness of data. The discontinuance or
                     strengthened controls should result in $273,881,986 in funds to be put to
                     better use.

                 1D. Issue clarification on the criteria for determining a loan’s sales contract date
                     and a property’s resale date to ensure consistent and accurate application by
                     lenders.



22
   The 23 unsupported loans consist of the 17 loans that contained one or more deficiency not identified by HUD
plus the six loans for which HUD did not maintain support that the material deficiencies had been mitigated. Of the
23 unsupported loans cited in this report, only 14 were active in HUD’s Single Family Data Warehouse as of June 1,
2014; the remaining 9 were terminated loans. Of the 14 active loans, (1) the lender signed an indemnification
agreement for FHA case number 137-5624402 during our audit, and (2) FHA case number 197-5413909, which was
reviewed in both samples, is included in recommendation 1B. Therefore, our recommendation is for the remaining
12 loans.
23
   See Appendix F
24
   Of the 22 ineligible loans cited in this report, only 16 were active in HUD’s Single Family Data Warehouse as of
June 1, 2014; the remaining 6 were terminated loans.
25
   See Appendix F

                                                        11
                         SCOPE AND METHODOLOGY

We performed our audit work from November 2012 through March 2014 at our offices located
in Chicago, IL, Columbus, OH, and Detroit, MI. The audit covered the period February 1, 2010,
through December 31, 2012, and was adjusted as necessary. To accomplish our objective, we

        Reviewed relevant background information, applicable mortgagee letters, HUD
         handbooks, the Code of Federal Regulations, Federal Register notices, HUD press
         releases, FHA’s Post Endorsement Technical Review Desk Guide (effective October
         2010), HUD’s Single Family Housing Enterprise Data Warehouse User’s Guide, and
         HUD’s Web site;
        Downloaded and analyzed loan-level data from HUD’s Single Family Housing Enterprise
         Data Warehouse related to property flips;
        Reviewed loan-level data from HUD’s Neighborhood Watch Early Warning System;26
        Selected and reviewed statistical samples of loans related to property flipping;
        Reviewed Accurint27 information for the selected loans; and
        Communicated with HUD staff and lenders.

Statistical Samples

HUD’s Postendorsement Technical Reviews

Using HUD’s Single Family Data Warehouse system as of April 1, 2013, we identified 69,196
loans endorsed between February 1, 2010, and December 31, 2012, which were identified by
HUD as property flips. Of these loans, 2,385 underwent a postendorsement technical review
performed by HUD’s Processing and Underwriting Division. To control for accuracy, 37 loans
that exceeded $450,000 in value were excluded as outliers.28 Of the 2,33129 loans reviewed by
HUD, we statistically selected 95 totaling more than $15.9 million to assess HUD’s oversight of
property flipping.

Loans were stratified by the unpaid balance to control for dollar variance amounts, which
provided a tighter, more accurate projection. These strata were developed by ranking loans in
order of unpaid balance and dividing them into six cost tiers by percentile. Table 1 shows the
stratification scheme for sampling the current population proportionately.




26
   Neighborhood Watch is a Web-based software application that displays loan performance data for lenders and
appraisers using FHA-insured single-family loan information. The system is designed to highlight exceptions so
that potential problems are readily identifiable.
27
   The Accurint database is an online resource that provides information on legal and public records.
28
   An outlier is an element of a data set that distinctly stands out from the rest of the data. Therefore, we identified
the outliers and removed them from the data before performing our statistical analysis.
29
   2,385 – 37 – 17 = 2,331. The 17 represents loans with sales contract dates prior to the effective date of the
waiver.

                                                           12
                                        Table 1: Sample design
                                       Loan
                                     balance >   Sample     Population          Sampling
                      Strata           or =        size        count             weight
                   Other 0-10%          $0           8         5,810             726.25
                  Other 10-30%        $79,850       16         12,061            753.81
                  Other 30-50%       $118,570       14         11,042            788.71
                  Other 50-70%       $154,321       12         9,002             750.17
                  Other 70-90%       $203,912       10         7,715             771.50
                  Other 90-100%      $289,832        5         3,753             750.60
                   Top 9 0-10%          $0           9         1,901             211.22
                  Top 9 10-30%        $79,850       19         3,803             200.16
                  Top 9 30-50%       $118,570       19         3,803             200.16
                  Top 9 50-70%       $154,321       19         3,803             200.16
                  Top 9 70-90%       $203,912       19         3,802             200.11
                  Top 9 90-100%      $289,832       10         1,902             190.20
                      Total             N/A        160            68,397          N/A


As shown in table 2, flipped properties tend to be concentrated in States where real estate prices
have undergone radical change. Volatility in real estate prices was managed by indexing States
according to the average decline in real estate prices between the first quarter of 2008 and the
third quarter of 2010. Sampling units were further sorted within each cost stratum by the degree
of decline in their State.

                                     Table 2: Concentration of flips
                        State price changes                     flips
                      3% to 10% growth                                             5
                      - 3% to + 3% growth                                        379
                      >3% to 6% decline                                          256
                      >6% to 12% decline                                         308
                      >12% to 20% decline                                        289
                      >20% decline                                              1,111
                       Change in home prices, quarter 1 of 2008 to quarter 3 of 2010


We modeled the performance of the stratified sample by simulating how well it detected various
error rates for various sample sizes. Replicated sampling was used to test the performance of the
sample design in scenarios in which the rate of error ranged from 5 to 50 percent and sample
sizes varied from 70 to 105 samples. The simulation results were compared with the actual
dollar amount in the underlying error scenario to verify the accuracy of results using these
methods. The recommended sample size of 95 was found to be effective in preventing errors,



                                                    13
During the audit, we tested a statistical sample of 95 loans, of which only 53 were property flip
transactions. Of the 53 loans, we found that HUD’s Processing and Underwriting Division did
not properly identify or mitigate at least 1 material deficiency for 23 loans (43 percent). Based
on a stratified sample, we can say, with a one-sided confidence interval of 95 percent that at least
15.6 percent, or 365, of the 2,331 loans had similar undetected problems or resolution issues in
flipped property loans during HUD’s postendorsement technical reviews.

Property Flips Identified by HUD

Of the universe of loans identified by HUD as property flips, we statistically selected 160 loans
totaling more than $26 million to review for lenders’ compliance with HUD’s property-flipping
waiver requirements and data integrity. Loans were stratified in order of their unpaid balance
and divided into six cost tiers by percentile within this rank. The sample count for each stratum
was proportionate to its size within the population of loans issued by the banks.

As shown in table 3, flips tended to be concentrated in States where real estate prices had
undergone radical change. Volatility in real estate prices was controlled by indexing States
according to the average decline in real estate prices between the first quarter of 2008 and the
third quarter of 2010. Sampling units were further sorted within each cost stratum by the degree
of decline in their State, and the units in each stratum were systematically sampled.

                                 Table 3: Concentration of flips by price
                                            growth decline
                                        Price change               Flips

                                 3% to 10% growth                        47
                                - 3% to + 3% growth                   1,786
                                >3% to 6% decline                     1,179
                                >6% to 12% decline                    1,556
                                >12% to 20% decline                   2,204
                                >20% decline'                        12,242
                                Change in home prices, quarter 1 of 2008 to
                                             quarter 3 of 2010


A sample size of 95 was chosen. Computer-replicated sampling (audit simulations) was used to test
the performance of the sample design in scenarios in which the rate of error ranged from 5 to 50
percent of the universe and sample size ranged from 70 to 105 samples. The results were compared
with the actual dollar amounts to verify the accuracy of the results using these methods.

The minimum advisable sample design noted above was expanded to include loans from additional
banks. A supplemental sample of 65 loans was drawn from the supplemental parts of the universe
using the same stratification scheme and selection method that was used for the primary sample.
For a total sample size of 160 loans, see table 1. If the minimum sample design was applied to the
whole universe, about 65 case binders would be pulled from the records of the other banks.

At least 7.23 percent, or 4,933, of the loans were legitimate flips but had one of the problems
identified with eligibility for FHA loans on properties that had been flipped. Based on a
stratified, random sample, with a one-side confidence interval of 95 percent, this constitutes at

                                                   14
least $798.8 million FHA loan dollars that were not protected from risk by at least one of the
eligibility requirements audited.

Our calculations are shown below:

(12.2389% - 1.6552 X 3.0271%) x N = 7.23% x N = 4,933 loans
(19265 - 1.6552 X 4567.7) x N = 11705 x N = $798,800,000 FHA loan dollars

Prorating this amount from 35 months to a 1-year period yields an estimated $274 million that
will not be protected from risk over a single year. Our calculation is shown below:

12/35 x $798.8 million ≈ $12/35 x $798,822,458 ≈ $273,881,986 FHA loan dollars

Potential Flips Identified

Using a property’s sales contract date and its prior sale date, we identified 35,940 properties with
loan values totaling more than $5.3 billion that were sold within 90 days of acquisition during
our audit period but not identified as property flips in HUD’s system. We statistically selected
70 loans totaling more than $11 million to determine whether these loans were 90-day property
flips and HUD’s effectiveness in identifying mortgages on flipped properties.

The universe was comprised of properties that were sold within 90 days of acquisition and not
designated as flips in HUD’s Single Family Data Warehouse system. The methodology was the
same used for the audit’s other samples and accounted for variations in price fluctuation by State. A
sample size of 70 was calculated using the classical proportion estimating formula with traditional
levels of significance and confidence limits. Of those 70 loans, HUD did not properly identify 19
(27 percent), valued at more than $3 million, for properties that had been resold within 90 days
for more than 20 percent above the previous sellers’ acquisition cost. In projecting the results of
our sample to the universe, we estimate, with a one-sided confidence interval of 95 percent, that
HUD did not properly identify nearly 6,800 properties that had been resold within 90 days of
acquisition with an increased sale price of more than 20 percent.

We relied on information maintained in HUD’s Neighborhood Watch and Single Family Data
Warehouse systems for informational and sampling purposes only. We also relied on data
maintained in the lenders’ systems, such as electronic loan files. Although we did not perform a
detailed assessment of the reliability of the data, we performed a minimal level of testing and found
the data to be adequately reliable for our purposes. The HUD system data for sampled items were
validated by reviewing documents supplied by the sampled lenders. The audit results were based on
our review of electronic and supporting hardcopy documentation maintained by the lenders.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit objective(s). We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.



                                                 15
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                     Effectiveness and efficiency of operations – Policies and procedures that
                      management has implemented to reasonably ensure that a program meets
                      its objectives.

                     Reliability of financial reporting – Policies and procedures that
                      management has implemented to reasonably ensure that valid and reliable
                      data are obtained, maintained, and fairly disclosed in reports.

                     Compliance with applicable laws and regulations – Policies and
                      procedures that management has implemented to reasonably ensure that
                      resource use is consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 16
Significant Deficiency

            Based on our review, we believe that the following item is a significant deficiency:

               HUD lacked adequate procedures and controls to (1) ensure that lenders
                complied with the additional underwriting conditions to be eligible for a
                waiver of its 90-day property-flipping regulation and (2) identify or track
                loans for 90-day property flips (see finding).




                                             17
                                   APPENDIXES

Appendix A
	
              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE


         Recommendation                                              Funds to be put
             number            Ineligible 1/        Unsupported 2/   to better use 3/
               1A                                       $1,047,314
               1B                  $1,487,921
               1C                                                      $273,881,986
              Totals               $1,487,921           $1,047,314     $273,881,986


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, if HUD implements our recommendation
     1C, it will reduce the risk to the FHA insurance fund for loans that do not meet HUD’s
     underwriting requirements under the property-flipping waiver. Our estimate reflects only
     the initial year of this benefit. The $798.8 million amount identified based on the audit
     sample, which covered a 35-month period, was proportionally adjusted to reflect the
     estimated savings for a 12-month period. Prorating this amount from 35 months to a 1-
     year period yields an estimated nearly $274 million that is not protected from risk over a
     single year. Our calculation is shown below:

            12-month estimate: 12/35 months x $798.8 million = $273,881,986




                                               18
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




                         19
                         OIG’s Evaluation of Auditee Comments

Comment 1   We acknowledge the Office of Single Family Housing’s plan to review and
            evaluate the current policies and procedures concerning its property-flipping
            waiver requirements.

Comment 2   The Office of Single Family Housing stated that it is reassessing the need for the
            waiver and is not planning on extending the waiver at this time. Further, with the
            waiver expiring on December 31, 2014, the Office of Single Family Housing
            stated that it could not implement OIG’s recommended controls and clarifications.

            We commend the Office of Single Family Housing for reassessing the need for
            the property-flipping waiver and acknowledge its plan of not extending the waiver
            at this time. However, its reassessment and plan do not constitute final resolution
            of OIG’s recommendations, including recommendations 1C through 1E of the
            discussion draft audit report. The Office of Single Family Housing has not
            provided a firm commitment to discontinue the property-flipping waiver. Further,
            the discontinuance of the waiver would serve as a form of internal control. We
            combined recommendation 1E with recommendation 1C of the discussion draft
            audit report, which is now recommendation 1C of this audit report.

            According to the United States Government Accountability Office’s (GAO)
            Standards for Internal Control in the Federal Government, internal control is a
            process used by management to help an entity achieve its objectives. For
            instance, one benefit of internal control is that it helps reduce risks affecting the
            achievement of an entity’s objectives. With FHA’s goal of helping to stabilize
            neighborhoods and communities and the potential of a property being resold for a
            considerable profit with an artificially inflated value, it is important for the Office
            of Single Family Housing to implement adequate controls to reduce the risk to the
            Mutual Mortgage Insurance Fund.

            Although we acknowledge the limited time remaining before the current waiver
            extension expires, we disagree with HUD’s statement that this would negate any
            potential savings OIG’s recommended controls would have offered. Since it is a
            possibility that the Office of Single Family Housing could extend or implement
            the waiver in the future, we recommend that HUD reconsider implementing our
            recommendations in this audit report. Therefore, the amount cited for funds to be
            put to better use, which is based on the inadequate controls that allowed lenders to
            underwrite ineligible FHA-insured loans, will also remain in the report.




                                              20
Appendix C

                                          CRITERIA

Regulations at 24 CFR 203.37a(b) state that the eligibility of a property for a mortgage insured
by FHA is dependent on the time that has elapsed between the date on which the seller acquired
the property (based upon the date of settlement) and the date of execution of the sales contract
that will result in the FHA mortgage insurance (the resale date). The lender must obtain
documentation verifying compliance with the time restrictions described in this paragraph and
must submit this documentation to HUD as part of the application for mortgage insurance in
accordance with subsection 203.255(b). Further, if the resale date is 90 days or fewer following
the date of acquisition by the seller, the property is not eligible for a mortgage to be insured by
FHA.

Regulations at 24 CFR 203.37a(d) state that failure of a lender to comply with the requirements
of this section may result in HUD’s requesting indemnification of the mortgage loan or seeking
other appropriate remedies under 24 CFR Part 25.

HUD Handbook 4000.2, REV-3, section 1-7, states that property flipping is a practice in which
recently acquired property is resold for a considerable profit with an artificially inflated value,
often abetted by a lender’s collusion with the appraiser. A property acquired by the seller is not
eligible for a mortgage to be insured by FHA for the buyer unless the seller has owned that
property for at least 90 days. If a property is resold 90 days or fewer following the date of
acquisition by the seller, the property is not eligible for a mortgage insured by FHA. FHA
defines the seller’s date of acquisition as the date of settlement on the seller’s purchase of that
property. The resale date is the date of execution of the sales contract by a buyer intending to
finance the property with an FHA-insured loan.

HUD Handbook 4150.2, CHG-1, appendix D, D-1: Uniform Residential Appraisal Report,
provides that section 2 (“Contract” section) of the appraisal report must be completed when the
appraisal assignment involves a purchase transaction; otherwise, “N/A,” for not applicable,
should be entered. FHA requires that the appraiser be provided a complete copy of the ratified
sales contract for the subject property, including all addenda. It provides the agreed-upon
contract price (accepted offer), date of sale, and all financial terms implicit in the offer. If unable
to obtain this information, the appraiser is to state what efforts were made to obtain it. This
handbook also provides that the

      Date of contract is the date when all parties have agreed to the terms of and signed the
       contract (section 2 – contract) and
      Date of sale or time is the month and year of settlement. Showing the contract date and
       settled date is also acceptable (section 6 – sales comparison analysis).

Mortgagee Letter 2006-14 states that categories of properties exempted from property-flipping
time restrictions include


                                                  21
          Sales by HUD of its real-estate owned properties.
          Sales by other United States Government agencies of single-family properties under
           programs operated by these agencies.
          Sales of properties by nonprofits approved to purchase HUD-owned single-family
           properties at a discount with resale restrictions.
          Sales of properties that are acquired by the sellers by inheritance.
          Sales of properties purchased by employers or relocation agencies in connection with
           relocations of employees.
          Sales of properties by State and federally chartered financial institutions and
           government-sponsored enterprises.
          Sales of properties by local and State government agencies.

Upon FHA’s announcement of eligibility in a notice, sales of properties located in areas
designated by the President as Federal disaster areas will be exempt from the restrictions of the
property-flipping rule. The notice will specify how long the exception will be in effect and the
specific disaster area affected.

Federal Register Notice 28632, volume 75, number 98, dated May 21, 2010, provides that for all
sales contracts executed on or after February 1, 2010, FHA has waived its regulation that
prohibits the use of FHA financing to purchase properties that are being resold within 90 days of
acquisition. This notice was effective from February 1, 2010, through February 1, 2011.

Federal Register Notice 6149, volume 76, number 23, dated February 3, 2011, provides that for
all sales contracts executed on or after February 1, 2010, FHA is extending the availability of the
temporary waiver of its regulation that prohibits the use of FHA financing to purchase single-
family properties that are being resold within 90 days of acquisition until December 31, 2011.
Further, if the lender has ordered a second appraisal to document the increase in value, it must
not use this appraisal for case processing and must not enter it into FHA Connection. This notice
was effective from February 1 through December 31, 2011.
Federal Register Notice 81363, volume 76, number 249, dated December 28, 2011, provides that
for all sales contracts executed on or after February 1, 2010, FHA is extending the availability of
the temporary waiver of its regulation that prohibits the use of FHA financing to purchase single-
family properties that are being resold within 90 days of acquisition until December 31, 2012.
This notice was effective from January 1 through December 31, 2012.

Federal Register Notice 71099, volume 77, number 230, dated November 29, 2012, provides that
for all sales contracts executed on or after February 1, 2010, FHA is extending the availability of
the temporary waiver of its regulation that prohibits the use of FHA financing to purchase single-
family properties that are being resold within 90 days of acquisition until December 31, 2014.
This notice was effective from January 1, 2013, through December 31, 2014.

HUD’s Post Endorsement Technical Review Desk Guide, dated October 2010, chapter 1, states
that the postendorsement technical review process is one of several FHA processes used to help
monitor and mitigate risk to the FHA insurance fund by conducting technical reviews on a
selection of postendorsement loans to ensure lender compliance with FHA credit and valuation
policies and procedures. These reviews help to identify areas of lender origination
                                                22
noncompliance, permitting FHA to require corrective actions to mitigate risk, including
indemnification and referral to the Mortgagee Review Board. In addition, these reviews assist
FHA management in determining whether policy changes are warranted or additional industry
guidance is needed.




                                              23
Appendix D

SCHEDULE OF POSTENDORSEMENT TECHNICAL REVIEW
                 DEFICIENCIES

                                                                     No support
                                  File lacking                      showing that
                   HUD           documentation                    health and safety
  FHA case    deficiency not   showing that issue      Lacked       repairs were      Lacked second
   number       identified        was resolved       inspection         made            appraisal
023-4037895                             X                X
042-9307714                             X                X
044-4721335         X                                    X                                 X
045-7785116         X                                    X                                 X
048-5805973         X                                                                      X
048-5886189         X                                                                      X
048-6930885         X                                    X
091-4828276         X                                                                      X
093-6920208         X                                    X                                 X
094-6447291         X                                    X                                 X
105-5797625         X                                    X
137-5624402         X                                    X
137-5795343         X                                    X
156-0269188         X                                    X
197-4874651         X                                    X                                 X
197-4897370         X                                                                      X
197-5413909         X                                                    X
292-5716802         X                                   X                                  X
421-4786604                            X                X                                  X
446-0124796                            X                X
461-5058377                            X                X                                  X
541-9195137                            X                X                                  X
548-4872196        X                                    X                                  X
                   17                  6                18               1                 14




                                                24
Appendix E

    SCHEDULE OF LENDER COMPLIANCE DEFICIENCIES

                              No support                                   Second         First
                             showing that                     Buyer       appraisal     appraisal
                           health and safety    Lacked     charged for   logged into   not logged
  FHA case      Lacked       repairs were       second         two          FHA         into FHA
   number     inspection         made          appraisal    appraisals   Connection    Connection
022-2330427                       X                            X
022-2365330                                                    X
023-4815063       X
023-4831696                       X
023-4837451                                                                  X
042-8979143                                       X
042-9420661                       X                            X             X
043-8481627                                       X
043-8661466                                                    X             X             X
043-8665734                                                                  X
043-8678353                                                                  X             X
043-8793295                       X                                          X
044-4861839                                       X
045-7497691                                                                  X
045-7608960                                       X
045-7646436                                                                  X
048-6079821                                       X
048-6483728                       X                                          X             X
048-6515084                                                                  X
048-6659714       X                                                          X             X
048-6917264                                                                  X             X
048-7086619                                                                  X
048-7200611                                                                  X




                                                25
        SCHEDULE OF LENDER COMPLIANCE DEFICIENCES
                       (CONCLUDED)

                            No support                                  Second          First
                           showing that                    Buyer       appraisal      appraisal
                            health and       Lacked     charged for   logged into    not logged
  FHA case      Lacked     safety repairs    second         two          FHA          into FHA
   number     inspection    were made       appraisal    appraisals   Connection     Connection
052-6856159                                                               X
052-6878279                                                               X
093-7442829                                                               X
095-2288478                                                               X
095-2298236                                                               X              X
105-6103760       X
121-2960481                                                               X
137-6709737       X                                                       X
161-2998265                                                               X              X
197-5378258                                                               X
197-5413909                      X
197-5647746                      X                                        X              X
197-5825809                      X
197-5955144                      X                                        X
221-4752113                                                               X
222-1907716       X                            X
292-6101998                                                               X
332-5612183                                    X
341-1258298                                                               X
372-4326504                                                               X
431-5143212       X                            X
446-0153031       X                            X
521-8475262                                                               X
                       7                9           9             4             30            8




                                             26
Appendix F

             ESTIMATED LOSSES TO HUD FOR MATERIAL
                         DEFICIENCIES


                                                    Estimated loss31        Estimated loss
                                     Unpaid               for                    for
                 FHA case           principal       recommendation         recommendation
                  number            balance30             1A                     1B
                022-2330427            $110,380                                     $59,605
                023-4815063             106,760                                      57,650
                042-9307714             262,932               $141,983
                042-9420661             181,398                                        97,955
                043-8481627             191,994                                       103,677
                043-8793295             155,036                                        83,719
                045-7608960             153,736                                        83,017
                045-7785116              39,383                 21,267
                048-5805973             213,178                115,116
                048-5886189             150,959                 81,518
                048-6079821             129,025                                        69,674
                048-6659714             181,916                                        98,235
                091-4828276             137,013                  73,987
                093-6920208              88,478                  47,778
                094-6447291              87,389                  47,190
                105-6103760              81,146                                        43,819
                137-5795343             267,952                144,694
                137-6709737             168,764                                        91,133
                197-4897370             245,865                132,767
                197-5413909             200,199                                       108,107
                197-5825809             238,081                                       128,564
                197-5955144             359,738                                       194,259
                292-5716802             171,647                  92,689
                332-5612183             142,476                                        76,937
                431-5143212             206,758                                       111,649
                446-0153031             148,002                                        79,921
                461-5058377             101,812                 54,978
                541-9195137             172,863                 93,346
                Totals               $4,694,880             $1,047,314             $1,487,921



30
   The unpaid principal balance amounts were drawn from HUD’s Single Family Data Warehouse as of June 1,
2014, for the active FHA loans with material deficiencies.
31
   The estimated loss is 54 percent of the unpaid principal balance amounts. The 54 percent is the estimated
percentage of loss HUD would incur when the FHA property is foreclosed upon and resold as supported by the
HUD Single Family Acquired Asset Management System’s case management profit and loss by acquisition as of
June 2014.

                                                      27
